     Office of Inspector General
   DEPARTMENT OF HOMELAND SECURITY


      Federal Emergency Management
     Agency’s Volunteer Service Program
        Following Hurricane Katrina




OIG-07-51                      June 2007
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                     June 7, 2007


MEMORANDUM FOR:               R. David Paulison
                              Administrator
                              Federal Emergency Management Agency


FROM:                         Richard L. Skinner
                              Inspector General

SUBJECT:                      FEMA’s Volunteer Service Program Following Hurricane Katrina
                              Report Number OIG –07-51


The purpose of this memorandum is to report the results of our review regarding FEMA’s mission
assignments to federal departments and agencies to provide volunteers in response to the 2005 Gulf
Coast hurricanes. Our objective was to determine whether the volunteer service program was
managed efficiently and effectively. We and other Inspectors General from the participating
agencies conducted interviews of agency points of contact (POCs) and volunteers.

FEMA issued mission assignments to more than 20 federal agencies that called for the assistance of
federal employees who were able to serve a minimum two-week field assignment in a variety of
disaster relief positions. FEMA’s mission assignment obligations per agency ranged from $2,000 to
over $2 million for overtime, travel, and per diem for employees who volunteered. Participating
agencies retained responsibility for their employees’ regular salaries. These services supplemented
the large numbers of employees assigned to hurricane relief efforts in line with their regular
positions. A FEMA report identified a total of 1,038 volunteers deployed, including 321 from 14
agencies external to DHS. FEMA and DHS officials, however, believe many more were actually
deployed than reported, and we identified volunteers from a number of agencies unaccounted for in
FEMA’s records.

                                     RESULTS OF REVIEW

The volunteer service program was initiated in a short time frame and with limited prior experience
or planning, but was generally implemented efficiently and effectively, and provided needed
resources to assist with relief efforts. Volunteers overwhelmingly cited their service as particularly
rewarding. However, POCs and volunteers identified several areas that need to be addressed prior to
the next hurricane season to improve the efficacy of the volunteer service program.
Planning, Organization, and Communication
Limited guidance for participating agencies and prospective volunteers was available prior to
Hurricane Katrina. FEMA subsequently prepared brief instructions that provided agencies with
general information about the program, including the coordination of volunteers between FEMA and
agencies, anticipated services and volunteer needs, and answers to frequently asked questions, such
as employee duty status, agency responsibility for travel orders, personal supplies to travel with, and
general deployment information. However, review and feedback from POCs and volunteers
identified a number of issues that caused misunderstandings, confusion, or concerns, such as:

    • What expenses are eligible for reimbursement?
    • Can notifications to volunteers to depart for training locations be made in more time than 24
       hours?
    • What are the expected assignments or types of work available?
    • Do employees make their own travel and lodging arrangements, and who provides the
      details?
    • How will overtime pay be reported and paid?

Additionally, FEMA contacted agency volunteers directly, without notifying or involving agency
POCs. Bypassing agency POCs, who were specifically designated by the agency at FEMA’s request
to coordinate the volunteer service program with FEMA, limited the agency’s knowledge and
record-keeping of the volunteers’ acceptances, departure or return dates, service locations, and
accounting for services performed. In some cases, supervisors were not even aware of their
employee’s deployment.

Field Utilization
The volunteers we spoke with generally told us that their services were rewarding and productive;
and that they would volunteer for future assignments. A number of issues were mentioned in our
interviews that, although they did not change volunteers’ feelings about their service, added
complications and should be addressed for future deployments:

    • Delays between the completion of training provided to volunteers in Florida and deployment
       for the actual field assignments were awkward and unproductive.
    • Disaster recovery centers to which they were assigned were often not ready, nor notified in
       advance to be prepared, to accept and use volunteers productively.
    • Due to the large number of displaced individuals and response personnel in the area,
       volunteers had significant difficulties in obtaining lodging in proximity to their assigned
       locations.

Matching Skills with Needs and Training
Volunteers cited the need to better match their skills or specialties with future field assignments. In
some agencies, the POCs identified the skills of the volunteers prior to their deployment and the
volunteers were used in line with these skills. However, generally there was no pre-identification or
coordination of skills and abilities with assignments, which resulted in some volunteers not being



                                                   2
employed as productively or effectively as possible. For example, a number of volunteers with
computer and language skills were deployed to do manual labor, and some with outdoor or
specialized labor skills were used in offices. Similarly, it appeared that standard training was
provided to all volunteers, although many of the volunteers had previously received similar training
on some of the subjects at their agencies, such as diversity, equal opportunity laws and regulations,
and ethics. Conversely, some volunteers noted a need for specialized and improved training in the
task area to which they had been assigned, such as case management, Disaster Recovery Center
operations, and disaster programs. Though the time constraints and difficulties in identifying
specific assignments and locations prior to completion of training can hamper matching skills with
needs or identifying necessary training, pre-identification of potential volunteers, including their
skills and prior training, would improve program effectiveness. In addition, the additional time and
effort required to identify specific assignments and duty locations in advance of sending volunteers
for training could benefit relief efforts by ensuring that qualified individuals are providing the most
productive and needed services possible.

Post-Deployment
Volunteers were often unprepared for the psychological demands that they encountered working in a
disaster environment. Though the instructions FEMA provided to the agencies referred to the
availability of pre- and post-deployment psychological support for volunteers, some were not aware
of the support offered and said the need for counseling at the end of their service was important,
indicating that such support was either not made available or its availability was not well
communicated. Because non-disaster workers rarely come into contact with the extent of damage,
devastation, and emotional upheaval that disasters involve, they are not cognizant of the impact it
has on them personally. Some level of counseling needs to be consistently provided both prior to
and upon return from deployment to ensure that volunteers can identify signs and symptoms of
psychological distress and know how and where to seek additional help when needed.

                  DISCUSSION WITH MANAGEMENT AND FOLLOW-UP

We provided a draft of this report to the Directors of the Human Resources and Response Divisions
at FEMA. The Director of Human Resources concurred with our findings and recommendations and
staff informed us that FEMA is currently working to identify potential volunteers at Federal agencies
for use at call centers in the Washington, DC metro area. The intent is to supplement available staff
and deploy experienced FEMA staff from these centers to active disaster locations by replacing them
with volunteers. We were told that these efforts have had limited success because most prospective
volunteers, including those who served in response to the Gulf Coast hurricanes, prefer to serve in
the impact area rather than at call centers. The Director of Response did not provide comments to
our draft report.

In April 2006, the DHS Chief Human Capital Officer forwarded to FEMA’s Human Resources
Division a draft summary of lessons learned from the Hurricane Katrina volunteer service program
that identified a need for a standard informational package or toolkit for disaster volunteers and the
agency POCs. The summary noted that advance preparation, especially in the area of
communications, would improve the process of obtaining and deploying a volunteer workforce. It
was also suggested that the toolkit include more detailed information for POCs and employees than


                                                   3
was previously provided, and address the issues we noted above. To date, this toolkit has not been
compiled.

We recommend that the Administrator, Federal Emergency Management Agency:

      1. Ensure that policy and procedural information distributed to other federal agencies
         regarding the volunteer service program specifically addresses expense eligibility, travel
         and lodging arrangements, notification and deployment time frames, pre-identification of
         training and skills, training requirements, and post-deployment support options;
      2. Identify a programmatic focal point within FEMA to establish procedures for collecting
         information, communicating with agency POCs, disseminating instructions, coordinating
         program activity, matching volunteer skills with needs, and ensuring accurate and complete
         record-keeping for deployments;
      3. Compile a listing of DHS and other federal agency employees willing to provide volunteer
         services in impact areas and at call centers in advance of each hurricane season, identifying
         existing skills, knowledge, abilities, and relevant training; and
      4. Develop a volunteer survey for use in conjunction with an after-action assessment of the
         volunteer service program to identify issues, and revise the relevant policies and
         procedures where appropriate.

The nature and brevity of this assessment precluded the use of our normal audit protocols; therefore,
this review was not conducted according to generally accepted government auditing standards. Had
we followed such standards, other matters might have come to our attention.

Please advise us within 30 days of the actions taken or planned to implement these
recommendations, including target completion dates for any planned actions. Should you have any
questions concerning this report, please call me, or your staff may contact Matt Jadacki, Deputy
Inspector General for Disaster Assistance Oversight, at (202) 254-4100.

cc:    Director, Human Resources Division, FEMA
       Director, Response Division, FEMA
       Director, National Response Coordination Center, FEMA
       Chief Human Capital Officer, DHS
       Audit Liaison, DHS
       Audit Liaison, FEMA




                                                  4
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
